No.

.,

Supreme Court, U.S.
FILED

IN THE

MAY 1 2 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

WASHINGTON, D.C.

PETITIONER
David Bernard Portae

VS.
Craig Koenig
WARDEN

RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
Petitioner David Bernard Portee respectfully petitions for
certiorari to review the judgment of the United States Court of Appeals
for the Ninth Circuit denying petitioner's application for certificate of
appealability.
'

PETITION FOR WRIT OF CERTIORARI
David Bernard Portee
P.O. Box 6S9 B-Wing 213L
Soledad, CA 939S0-0S89

rdeceived
may

1 1 2021

QUESTIONS PRESENTED

1. Should each Justice or Judge of the United States take the Oath of
office or affirmation before performing the duties of office?
2. Did the four Judges who presided over my case in 1981 without a oath
of office lack subject-matter jurisdiction, and would there judgments
be null and void?
3. If the Judge issue a arrest warrant without a oath of office would
that constitute false arrest?
4. Is it true subject-matter Jurisdiction can never be waived and can
be raised at anytime, even after judgment on the merits?

5. Is it true if there is no jurisdiction there is no Judge and the
proceedings are as nothing?
6. Did the'state court have subject matter jurisdiction, when the judge did
not have a oath of office?
7. If a Judge do not have a oath of office would that be a constitutional
violation?

LIST OF ^AFTTFS

[xl All parties appear In the caption of the case on the coyer page.
[] All parties do not appear in the caption of the case on the coyer page.
A list of all parties to the proceedings in the court whose judgment
is the subject of this petition is as follows:

T4BIE OF CONTENT’S

OPINION BELOW

t

JURISDICTION

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3.
4-5

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

5.

CONCLUSION

S,

INDEX TO APPENDICES
APPENDIX A

UNITED STATES COURT OF 4PPEAS FOR THE NINTH CIRCUIT

APPENDIX B

UNITED STATES DISTRICT COURT NORTHERN DISTRICT OF CALIFORNIA

APPENDIX C DECISION O'7 THE STATE COURT MADE REFERENCE TO BY U.S. DISTRICT Cfc.
DECISION.
APPENDIX D STATE COURT OF APPEALS DENYING MANDATE.
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Johnson v. Zerbst,

304 U.S.

458,

58 S.Ct.

1019

Austin v. Smith,
U.S.

v. Levin,

312 F. -Supp. 2d

IBS F.

Supp.

337,343

3d

26,

2015 U.S. Dist.LEXUS

Rosenstiel v. Rosenstiel, 273

52907
f,

Supp.

Twin City Flee Inc, v. Adkins. 400 F. 3d

794
293,299

Hagins v. Levine.2 415 US
U.S. V. Will, 449 U.S.

533
200,215

STATUTES AND RULES
Title 5 U.S.C. section 556 States as follow: When Jurisdiction is
challenge the burden of proof is on the government.
FRCP Rule 12(h) 3,"Subject-Matter Jurisdiction may not be waived and
courts may raise the issue sua sponte."
Lack of subject matter jurisdiction is a defense that is never waived.

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review
the judgment below.
OPINIONS RELOW

Bel For cases from Federal Courts:
The opinion of the United States court of appeals appears at
appendix A__ to the petition and is
[] reported at_____________ ;or,
[] has been designated for publication but is not yet reported;;or
&] is unpublished.

The opinion of the United States district court appears at Appendix B to
petition and is
[] reported at_____________ ;or
[] has been designated for publication but is not yet reported;;or
&] is unpublished.

1.

JURISDICTION
[)i For cases from federal courts:
The date on which the United States Court of Appeals decided my case was March
26, 2021.
[■$ No petition for rehearing was timely filed in my case.
[] A timely petition for rehearing was denied by the United States Court of
Appeals on the following data:

,and a copy of the order denying

rehearing appears at Appendix^
[] An extension of time to file the petition for a writ of certiorari was
granted to and including

(date) on

(date) in Application

No. AThe jurisdiction of this Court is invoked under 28 U.S.C.§ 1254(1)*

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
II. Current Constitutions, statutes, and decisional law.
A. Oaths of Office.
7.a. The Constitution for the United States, article VI, clausa 3,reads: The
Senators and Representatives before mentioned, and the Members of the several
State Legislatures, and all executive and judicial Officers, both of the United
i

i

'■

States and of the several States, shall be bound by Oath or Affirmation, to
support this Constitution.
United States Code Annotated,Const.(1999). art.VI,Cl.3. 7.b.2S U,5.C.A.5 453
reads: Each justice or judge of the United States shall take the following
oath or affirmation before performing the duties of his office: "I,__________ do
solemnly swear (or affirm) that I will administer justice without respect
to persons, and do equal right to the poor and to the 'rich, and that I will
faithfully and impartially discharge and perform all the duties incumbent
upon me as

under the Constitution and laws of the United States. So

help me God."
Title 5 U.S.C. section states, as follows: "When jurisdiction is challenged
the burden of proof is on the government.’'
My Fourth, fifth, fourteenth Amendment Rights where Violated.
STANDARD OF REVIEW
DENIAL OF CERTIFICATE OF APPEALABILITY
In Miller-EI v, Cockrell, 537 U,S,322,123 S.Ct. 1029, this Court
clarified the standards for issuance of a certificate of Appealailiy "(COA)."
A prisoner seeking a COA need only demonstrate a ’’substantial” showing
of the denial of a constitutional right." We do not require petitioner to
prove, before the issuance of a COA, that some jurists would grant the petition
for habeas corpus.

3.

STATEMENT OF THE CASE
The incident in question occurred on August 26, 1981, when the Judges
involved with various events in petitioner's case in 1981 who issued arrest
warrant, search warrant, and preliminary Hearing did not have a oath of office
when they performed there judicial duties.
REASONS FOR GRANTING THE WRIT
The complaint filed by D.District Attorney John Schon and police
on Aug 26, 1981, and heard by Judge Nark Thomas Jr. who issued a arrest warrant
without a oath of office was null and void.
On Aug 27, 1981

officer J.Woodall arrested petitioner at his lady

friends place of employment FMC corp. parking lot he advised me there was.
a warrant for my arrest, I asked to see the warrant and was advised he would
show me when we got to the station, which constitute false imprisonment.
On Sept 1, 1981, officer J.Woodall and B.Caro responded to DA's office
and picked up completed search wwarrants and affidavit and responded to Judge
L. Edwards who signed said warrants for the address and vehicle without a
oath of office. His action should be nult and void.
On Oct 7,8,9,1981, Judge F. Lucero, held petitioner's preliminary
Hearing and bound me over for trial without a oath of office, his judgments
should be null and void.
On Dec 15, 1981, Judge J.Flaherty, presided over petitioner's motions
hearing 995 & 1538.5. denying both motions, without a-oath of office prior
[

to 12/15/81, judgment should be null and void illegal evidence was ordered
to be used against me at trial.
On June 20, 1982, Petitioner was unlawfully convicted by a jury,
and illegally sentence on July 20,1982 to c/s life sentences in prison, when
the court was in absolute lack of jurisdiction ab initio.

Thera is no affidavit by an affiant who sworn under oath that he/she
saw petitioner commit a crime or that petitioner committed a crimee, it has
taken 39 years, and petitioner is honored to be hare in front of this Honorable
Court so this case may be examined for the gross miscarriage of Justice that
continues to this day. It is petitioner's understanding that this Honorable
Court is the Court to examine the power of all previous courts.
It is important for this Court's judicial discretion as- to the
conflict of the decision of the district and ninth cir. not to address the
issue of the judges not having a oath of office before they entered upon the
duties of their respective offices, and if not would their judicial decisions
be null and void.
The importance of this case not only to me but to others similarly
situated; and the ways the decision of the lower court in my case was
erroneous. It is important for this Court's discretionary jurisdiction.

5.

APPENDIX A

